   AUDIT REPORT

U.S. Fish and Wildlife Service
  Federal Assistance Grants
Administered by the State of
 Washington, Department of
Fish and Wildlife from July 1,
 2000, through June 30, 2002




   Report No. R-GR-FWS-0029-2003

                        March 2004
                U
                Unniitteedd SSttaatteess D          meenntt ooff tthhee IInntteerriioorr
                                         Deeppaarrttm
                                                   .
                           OFFICE OF INSPECTOR GENERAL
                                         External Audits
                               12030 Sunrise Valley Drive, Suite 230
                                       Reston, VA 20191

                                                                                           March 31, 2004

Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Joe Ansnick
           Director of External Audits

Subject:   Final Audit Report on the State of Washington, Department of Fish and Wildlife from
           July 1, 2000, through June 30, 2002 (No. R-GR-FWS-0029-2003)

        This report presents the results of our audit of costs incurred by the State of Washington,
Department of Fish and Wildlife (Department), under its hunting and fishing programs and costs
claimed under Federal Assistance grants from the U.S. Fish and Wildlife Service (FWS) from
July 1, 2000, through June 30, 2002 (see Appendix 1).

        We found that the Department did not keep time sheets or other adequate documentation
to claim hours worked by aquatic education volunteers; did not report regional wildlife
managers’ salaries and benefits according to projects actually worked on; both understated and
overstated its applicable direct and overhead costs on its claims for reimbursement; omitted State
program income from a final financial report and five drawdowns for reimbursements for a
wildlife grant; and, as reported in the prior Federal Aid audit of the Department, did not allocate
overhead costs, such as annual and sick leave, in accordance with the projects actually worked
on by employees.

        The Department and FWS Region 1 responded to a draft of this report on March 5, 2004.
The Region concurred with the five report recommendations. We modified the findings and
recommendations as necessary to incorporate additional information provided and to clarify the
report. We have added the responses after our recommendations and summarized the status of
the recommendations in Appendix 3.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written response by June 30, 2004, to the unresolved and unimplemented recommendations
included in this report. Your response should include information on actions taken or planned,
including target dates and titles of officials responsible for implementation. If you have any
questions regarding this report, please contact me at 703-487-5345 or Mr. Tom Nadsady, Audit
Team Leader, at (916) 978-5623.

cc:     Regional Director, Region 1, U.S. Fish and Wildlife Service
                   IIN
                     NTTR
                        ROOD
                           DUUC
                              CTTIIO
                                   ONN

             The Pittman-Robertson Wildlife Restoration Act, as amended (16
Background   U.S.C. 669), and the Dingell-Johnson Sport Fish Restoration Act,
and Scope    as amended (16 U.S.C. 777) (the Acts), authorize FWS to provide
             Federal Assistance grants to states to enhance their sport fish and
             wildlife programs. The Acts provide for FWS to reimburse the
             states up to 75 percent of the eligible costs incurred under the
             grants. The Acts specify that state hunting and fishing license
             revenues cannot be used for any purpose other than the
             administration of the state’s fish and game agencies.

             We performed an audit of the sport fish and wildlife program and
             the Federal Assistance grants to the State of Washington at the
             request of FWS. The objectives of our audit were to evaluate: (1)
             the adequacy of the Department’s accounting system and related
             internal controls; (2) the accuracy and eligibility of the direct and
             indirect costs incurred under the sport fish and wildlife programs
             and those costs claimed under the Federal Assistance grant
             agreements with FWS; (3) the adequacy and reliability of the
             Department’s hunting and fishing license fees collection and
             disbursement process; (4) the adequacy of the Department’s asset
             management system and related internal controls with regard to
             purchasing, maintenance, control and disposal; and (5) the
             adequacy of the Department’s compliance with the Acts’ assent
             legislation requirements. The audit was also to include a review of
             other issues considered sensitive and/or significant by the FWS.
             The audit included license fees of $61 million and claims totaling
             approximately $24.6 million on FWS grants that were open during
             the State’s fiscal years ended June 30, 2001 and 2002 (see
             Appendix 1).

             Our audit was performed in accordance with the government
             auditing standards issued by the Comptroller General of the United
             States. Accordingly, we included such tests of records and other
             auditing procedures that we considered necessary under the
             circumstances. We relied on the work of the State of Washington
             Single Audit Report auditors to the extent possible in order to avoid
             a duplication of effort. Our tests included an examination of
             evidence supporting selected expenditures charged by the
             Department to the grants; interviews with employees to ensure that
             all personnel costs charged to the grants were supportable; and a
             review of the Department's use of fishing and hunting license
             revenues to determine whether the revenues had been used for
             program purposes. We did not evaluate the economy, efficiency,
             and effectiveness of the Department’s operations.

                                 2
              Our audit was performed at the Washington Department of Fish
              and Wildlife headquarters in Olympia, Washington. We also
              visited the Naches and Issaquah hatcheries, the regional office in
              Montesano, and several wildlife areas (see Appendix 2).

              On January 14, 1998, we issued audit report No. 98-E-226, “Audit
Prior Audit   of U.S. Fish and Wildlife Service Federal Aid Grants to the State of
Coverage      Washington, Department of Fish and Wildlife, for Fiscal Years
              1995 and 1996.” The Washington State Auditor’s Office annually
              audits the various aspects of the Department.

              We reviewed these reports and followed up on all significant
              findings to determine whether they had been resolved prior to our
              review. We included one finding in this report from our January
              14, 1998, report because it had not been addressed satisfactorily:
              the charging of common costs. As reported in the prior Federal
              Aid audit of the Department, overhead costs, such as annual and
              sick leave, were not allocated in accordance with the projects
              actually worked on by employees.




                                  3
                       R
                       REESSU
                            ULLTTSS O
                                    OFF A
                                        AUUD
                                           DIITT

                      Except for the issues identified below, we concluded that the
Summary               Department’s accounting system and related internal controls
                      adequately and accurately accounted for grant and license fee
                      receipts and disbursements; direct and indirect costs were
                      adequately reported and supported; the asset management system
                      adequately identified and tracked personal and real property with
                      regard to acquisition, maintenance, control and disposal; and the
                      State also had adequate legislation that assented to the provisions
                      of the Acts and prohibited the use of license fees for anything other
                      than the administration of the Department.

                      We found that the Department:

                             •   Claimed costs as in-kind contributions for the Aquatic
                                 Education program based on unsupported estimates of
                                 volunteer hours.

                             •   Did not report regional wildlife managers’ salaries and
                                 benefits according to projects actually worked on.

                             •   Both understated and overstated its applicable direct and
                                 overhead costs on its claims for reimbursement.

                             •   Omitted $36,019 in program income from one wildlife
                                 grant and failed to report program income on six interim
                                 Financial Status Reports for another wildlife grant.

                      We questioned $185,550 (Federal share $139,162) charged to the
A. Questioned Costs   Aquatic Education programs (Watershed Stewardship, and
                      Salmonids in the Classroom) during State fiscal years 2001 and
                      2002 because the Department claimed estimated labor hours as its
                      matching share under the grant without obtaining time sheets, sign-
                      in sheets or any other form of certification from the volunteers.
                      The Code of Federal Regulations (CFR) at 43 CFR § 12.64 (b)(6)
                      states that “Costs and third party in-kind contributions counting
                      towards satisfying a cost sharing or matching requirement must be
                      verifiable from the records of grantees and subgrantees or cost-type
                      contractors… To the extent feasible, volunteer services will be
                      supported by the same methods that the organization uses to
                      support the allocability of regular personnel costs.” The same
                      requirements are also identified in Office of Management and
                      Budget (OMB) Circular No. A-87, Attachment B, Part 11.i. The
                      Department used time sheets to support the labor hours worked by



                                        4
                      regular personnel. The Department estimated in-kind contributions
                      for the following projects:

                          •   Nature Mapping (under the Watershed Stewardship
                              Program). This estimate was developed by website group
                              leaders once each year. The estimate was based on the
                              number of hours worked by volunteers who monitored
                              websites. The volunteers included not only adults but also
                              students from elementary schools through the college level.
                              The Department estimated that 3,141 volunteers spent
                              13,971.5 hours monitoring the websites.

                          •   Salmonids in the Classroom Program. This estimate was
                              developed by the Department based on estimates of the
                              number of hours worked by school teachers in the
                              classroom. The Department estimated that 600 to 700
                              teachers worked on the program and that each teacher
                              worked from 25 to 100 hours annually conducting the
                              program. Using the most conservative estimates
                              (600 teachers times 25 hours), the Department estimated
                              that teachers volunteered a minimum of 15,000 hours
                              annually.

                      Using the estimates prepared by the Department, these two
                      programs would account for volunteer hours at a value (cost) of
                      $434,580 (28,972 hours @ $15.00/hour), which if supported,
                      would be significantly more than the $185,550 claimed (12,370
                      hours @ $15.00).

Recommendations       We recommend that FWS:

                        1. Resolve the $185,550 of questioned costs.

                        2. Work with the Department to establish a timekeeping system
                           that will enable the Department to record and certify
                           volunteer hours concurrent with when they are worked for
                           the Nature Mapping and the Salmonids in the Classroom
                           Programs.

Department Response   The Department concurred with the findings and
                      recommendations, and it provided us with documentation of the
                      work performed by the volunteers in order to adequately resolve
                      the questioned costs. In addition, a corrective action plan was
                      established to implement recommendation 2. The plan included
                      procedures to (1) identify and record volunteer information and
                      activity data, (2) assign staff responsibilities and develop processes
                      to insure the valuation of these contributions, and (3) provide a



                                        5
                    summary showing the value of the third party in-kind
                    contributions.

  FWS Response      FWS concurred with the finding and recommendations, and after
                    reviewing the documentation and the corrective action plan,
                    considered the questioned costs reinstated and the Department’s
                    corrective actions implemented.

  OIG Comments      The Department’s and the FWS’ responses were considered
                    sufficient to consider the finding resolved and the
                    recommendations implemented. No further action on the
                    recommendations is necessary.

                    The Department did not report regional wildlife managers’ salaries
B. Payroll          and fringe benefits according to actual work performed. OMB
                    Circular A-87, Attachment A, item C.3.a states “A cost is allocable
                    to a particular cost objective if the goods or services involved are
                    chargeable or assignable to such cost objective in accordance with
                    relative benefits received.” We found that regional wildlife
                    managers worked on several different projects and grants, but
                    charged their time according to prearranged time codes. The
                    Region 3 wildlife manager charged 32 percent of his time and all
                    other regional wildlife managers charged 38 percent of their time
                    to Grants W-96-R-9 and W-96-R-10 (the State Wildlife
                    Management Grant) during the audit period. In Region 1, the
                    wildlife manager worked on seven other projects and two other
                    grants, but no time was charged to these projects and grants. The
                    practice of charging the State Wildlife Management Grants a
                    prearranged percentage of regional wildlife managers time had
                    been established prior to the period of our audit and the reason for
                    using these percentages was not known.

                    For the two State fiscal years reviewed and for all six regions,
                    $389,823 was reported by the Department as salary and fringe
                    benefit expenses for Statewide Wildlife Management. However,
                    we were unable to determine if this was an appropriate amount to
                    charge to Grants W-96-R-9 and W-96-R-10. We were also unable
                    to determine how much of these costs or other regional wildlife
                    manager costs should have been charged to other grants and
                    projects. Based on the response to the draft report, we added
                    Recommendation 1 below.

  Recommendations   We recommend that FWS:

                      1. Resolve the issue of charging predetermined percentages of
                         time for the Department’s regional wildlife managers to
                         Grants W-96-R-9 and W-96-R-10.



                                      6
                          2. Require the Department to review its payroll procedures over
                             accounting for employee time, and issue new guidance or
                             provide training on the current guidance in order to ensure
                             that salaries and fringe benefits are charged to the projects
                             and grants upon which the employees actually work.

  Department Response   The Department concurred with the finding and developed a
                        corrective action plan to implement Recommendation 2. The plan
                        included an electronic communication issued to all Department
                        staff requiring daily coding of time sheets for projects worked that
                        day. Because Recommendation 1 was not included in the draft
                        report, it was not addressed.

  FWS Response          FWS concurred with the finding and Recommendation 2 and
                        considered the Department’s corrective action implemented.
                        Because Recommendation 1 was not included in the draft report, it
                        was not addressed.

  OIG Comments          The responses were considered sufficient to consider the finding
                        resolved and Recommendation 2 implemented. The Department
                        and FWS should address Recommendation 1. Accordingly, we
                        consider the finding as it relates to Recommendation 1 unresolved
                        and Recommendation 1 unimplemented.

                        The Department did not correctly allocate grant direct and indirect
C. Drawdowns            costs between the Federal and State shares when calculating
                        overhead costs for Federal Assistance grants. Standards for
                        Financial Management Systems specified in 43 CFR § 12.60 (a)
                        require that a State must expend and account for grant funds in
                        accordance with State laws and procedures for expending and
                        accounting for its own funds. Fiscal control and accounting
                        procedures of the State, as well as its subgrantees and cost-type
                        contractors, must be sufficient to (1) permit preparation of reports
                        required by this part and the statutes authorizing the grant, and (2)
                        permit the tracing of funds to a level of expenditures adequate to
                        establish that such funds have not been used in violation of the
                        restrictions and prohibitions of applicable statutes.

                        In addition, 31 CFR § 205.11(a) provides that “A State and a
                        Federal Program Agency must minimize the time elapsing between
                        the transfer of funds from the United States Treasury and the
                        State’s payout of funds for Federal assistance program purposes,
                        whether the transfer occurs before or after the payout of funds.”




                                          7
                      We found that the Department overbilled and underbilled the
                      Federal portion of Federal Assistance grants as shown in the
                      following examples:

                          • The accounts receivable report for Grant No. R-1-D-1,
                            Wildlife Conservation & Restoration Program, shows that
                            for the month of May 2002, the Department overbilled the
                            Federal portion of the costs by using a split of 83 percent
                            Federal and 17 percent State, instead of the grant allowed
                            75 percent Federal and 25 percent State. This resulted in an
                            overpayment of $1,153 to the State by FWS.

                          • The accounts receivable report for Grant No. W-96-R-10,
                            Statewide Wildlife Management, shows that for the month
                            of February 2002, the Department underbilled the Federal
                            portion of the costs by using a split of 58 percent Federal
                            and 42 percent State, instead of the instead of the grant
                            allowed 75 percent Federal and 25 percent State. This
                            resulted in an underpayment of $11,611 by FWS to the
                            State.

Recommendations       We recommend that FWS require the Department to review
                      Financial Status Reports to:

                          1. Ensure the correct allocation was made for the Federal and
                             State shares of grant costs.

                          2. Verify the appropriate percentages for Federal Aid grants
                             were entered into the Department’s financial reporting
                             system.

                          3. Ensure that the appropriate allocation percentages are
                             applied monthly.

Department Response   The Department concurred with the finding, with the exception of
                      the inclusion of Grant R-1-D-1 from the Wildlife Conservation and
                      Restoration Program, which was not a Federal Assistance grant,
                      and developed a corrective action plan to implement the
                      recommendations. The Department submitted to FWS an Audit
                      and Adjustment Statement verifying the appropriate percentages
                      for Federal Assistance grants and made adjustments to correct
                      variances.

FWS Response          FWS concurred with the finding and recommendations and
                      considered the Department’s corrective action fully implemented.




                                        8
  OIG Comments          Grant R-1-D-1 was included in the audit scope based on a
                        preliminary determination to include Wildlife Conservation and
                        Restoration Program grants in the review of Federal Assistance
                        grants. By the time we determined that Wildlife Conservation and
                        Restoration Program grants should be excluded from our scope, the
                        exception had been identified. The responses were considered
                        sufficient to consider the finding resolved and the
                        recommendations implemented. Therefore, no further action is
                        necessary.

                        The Department did not accurately report program income. The
D. Program Income       Department accounted for program income from lands maintained
                        with Federal Aid funds in two separate accounts according to the
                        75/25 percentage split between Federal and State funding. When
                        the financial status report for the Wildlife Area Program Grant
                        W-94-D-19 was completed, only the Federal amount was reported.

                        Program income is defined in 43 CFR §12.65(b) as gross income
                        received by the grantee or subgrantee directly generated by a grant
                        supported activity, or earned only as a result of the grant agreement
                        during the grant period. For Federally maintained lands, all income
                        is considered directly generated by the grant and is program
                        income.

                        For fiscal year 2002, program income was understated by $36,019
                        on Grant W-94-D-19. It should be noted, however, that the
                        Department spent and reported $91,407 more than the required
                        matching share on this grant. We also noted that program income
                        was omitted on interim Financial Status Reports through December
                        2002 (cumulative total of $12,550) on Grant W-94-D-20. The
                        Department correctly reported the amount in January 2003
                        ($18,864).

  Recommendation        We recommend that FWS require the Department to report all
                        program income on interim as well as final Financial Status
                        Reports in order to ensure the accurate and timely reporting of all
                        program income and to facilitate accurate drawdowns.

  Department Response   The Department concurred with the finding and submitted a report
                        indicating that training of Financial Service Division staff to
                        improve internal controls for accurately accounting for program
                        income had been completed.

  FWS Response          FWS concurred with the finding and recommendation and
                        considered the Department’s corrective action fully implemented.




                                          9
   OIG Comments          The responses were considered sufficient to consider the finding
                         resolved and the recommendation implemented. Therefore, no
                         further action is necessary.

                         As reported in the prior Federal Assistance audit of the
E. Prior Audit           Department, employee fringe benefits such as annual and sick
Finding - Direct         leave were not accurately charged to projects actually worked on.
Charging for             The Department did not charge vacation (annual) leave, sick leave,
Overhead Costs           and associated employer paid labor costs to an overhead account
                         nor did it charge the costs to the projects at the time the employees
                         earned them. Instead, these employee leave benefits were charged
                         to projects that the employees worked on during the month when
                         leave was taken.

                         Employee benefits such as leave can be charged as indirect costs in
                         accordance with the policies and procedures of the State. OMB
                         Circular A-87, Attachment A, Subpart F item 1, defines indirect
                         costs as those costs incurred for a common or joint purpose
                         benefiting more than one cost objective that are not readily
                         assignable to the cost objectives specifically benefited. To
                         facilitate the equitable distribution of indirect expenses to the cost
                         objectives served, it may be necessary to establish a number of
                         pools of indirect costs within a governmental unit.

                         The Department’s response to the prior finding was “The agency is
                         reviewing its current practice of allocating vacation and sick leave
                         as a direct cost. Changes in practice will most likely include a
                         more representative base (versus one month) to distribute these
                         direct costs.” However, we found no evidence that the Department
                         addressed the resolution of this issue and the practice has continued
                         through the current audit period. We found that at year end, some
                         cost codes were overstated due to commingling of actual costs with
                         allocated overhead costs attributable to other projects worked on
                         during the year, while other cost codes were understated because
                         they had not been allocated their fair share of overhead costs. If
                         the Department wants to charge employee leave benefits directly, it
                         must do so in accordance with how the leave was earned.

   Recommendation        We recommend that FWS require the Department to either directly
                         charge employee leave benefits in accordance with how they were
                         earned or develop a system to charge leave accruals to an overhead
                         pool and then equitably allocate the overhead costs from the pool to
                         projects worked on.

   Department Response   The Department did not concur with the recommendation as
                         written in the draft because it did not provide for direct charging of
                         employee leave benefits. Officials believe that the practice of



                                           10
               charging actual leave taken complies with requirements of Office
               of Management and Budget Circular A-87 and fairly charges costs
               to Federal Assistance and other projects. Fringe benefits, such as
               vacation and sick leave, were a direct charge in the period that the
               leave was taken and paid. The actual cost of the leave taken was
               charged to projects based upon the actual hours worked for each
               employee in that month. Department officials performed a
               comparison of the direct charging practice to a composite rate it
               developed for allocation of vacation and sick leave costs. The
               composite rate was based on a review of 14 Departmental
               employees that worked on Federal Assistance projects from July 1,
               2002 through June 30, 2003. Based on the results of the
               comparison, the composite rate resulted in $22,945 of additional
               vacation and sick leave costs that should have been charged to
               Federal Assistance projects. However, Department officials
               believe “that these differences would vary and over time the
               amounts would be materially the same.”

FWS Response   FWS concurred with the finding but disagreed with the
               recommendation. FWS reviewed the analysis comparing actual
               charges to the use of the composite rate and agreed that Federal
               Assistance grants were undercharged $22,944 for leave benefits.
               As a result, FWS disagreed with the recommendation requiring that
               employee leave benefits be charged to an indirect cost pool as
               stated in the draft report.

OIG Comments   Costs can be charged either directly or indirectly, depending on
               how the State handles similar costs. Accordingly we changed our
               recommendation to provide for either the direct or indirect
               charging of employee leave benefits. We found no evidence that
               the Department changed any of its procedures to resolve this issue.
               While the composite rate that was developed indicated that FWS
               may have been undercharged, the Department stated that this
               situation would vary and the application of the composite rate
               could also result in an overcharge. We believe that this indicates
               that directly charging leave to the projects that an employee
               worked on during the month that the leave is taken is not an
               accurate way of charging employee leave costs and is easily
               subject to manipulation. The most accurate method would be to
               charge the leave costs directly to the activity worked on when they
               are earned, not when they are used. We believe that a
               methodology needs to be developed that is equitable and not easily
               manipulated. Accordingly, we revised the recommendation and
               consider the finding unresolved. FWS and the Department should
               address this finding and the revised recommendation in their
               corrective action plan.




                                11
                                                               APPENDIX 1



                      STATE OF WASHINGTON
                 DEPARTMENT OF FISH AND WILDLIFE
             FINANCIAL SUMMARY OF REVIEW COVERAGE

                 Budgeted                   Questioned Costs
     Grant        Grant       Claimed
    Number       Amount        Costs      Total   Federal Share    Note

F-43-D-44          $58,361     $58,361
F-43-D-45           76,364      66,224
F-80-R-15          175,000     175,000
F-84-B-15          856,834     855,433
F-84-B-16 B&X      791,890     791,890
F-85-B-11          353,333     249,292
F-85-B-12          357,400     139,038
F-91-AE-15         473,080     453,692     $0           $0          1
F-91-AE-16         496,530     330,942      0             0         1
F-97-R-14           49,333      44,061
F-97-R-15           52,231      46,921
F-110-R-8          429,872     414,021
F-112-R-8         1,473,220   1,387,768
F-112-R-9         1,673,220   1,540,473
F-115-R-4         2,516,266   2,207,164
F-115-R-5         1,685,791   1,453,920
F-118-D-2          600,000     597,548
F-118-D-3          600,000     585,149
F-122-B-1           67,707      41,331
FW-2-T-18          533,513     525,050
FW-2-T-19          536,180     536,180
W-41-D-50          485,333     485,333
W-41-D-51          715,363     715,363
W-42-L-49          255,130     255,130
W-42-L-50          255,130     255,130
W-83-HS-30         462,000     446,008
W-83-HS-31         656,666     556,146


                                12
                                                                                                 APPENDIX 1



                            Budgeted                                      Questioned Costs
         Grant               Grant                 Claimed
        Number              Amount                  Costs              Total      Federal Share         Note
W-94-D-18                    1,344,867              1,515,581
W-94-D-19                    1,874,378              2,020,453
W-96-R-9                     2,034,026              2,034,026
W-96-R-10                    2,924,000              2,924,000
W-98-E-1                       162,778                 92,241
R-1-D-1                      1,355,896                781,950
        Totals            $26,381,692            $24,580,819             $0               $0              1

____________________

Note:

1: We questioned $185,550 ($139,162 Federal share) of grant costs claimed by the Department as in-kind
contributions for the Aquatic Education program in the draft report because the costs represented unsupported
estimates of volunteer hours. Subsequently, the Department reconstructed time sheets to provide adequate support
to reinstate these questioned costs.




                                                       13
                                        APPENDIX 2



     STATE OF WASHINGTON
DEPARTMENT OF FISH AND WILDLIFE
         SITES VISITED



           Chelan Wildlife Area
       Columbia Basin Wildlife Area
         Moses Lake Wildlife Area
          Cowiche Wildlife Area
        L. T. Murray Wildlife Area
         Ellensburg Wildlife Area
         Oak Creek Wildlife Area
          Olympic Wildlife Area
            Issaquah Hatchery
             Naches Hatchery
     Headquarters Office, Olympia, WA
     Region Six Office, Montesano, WA




                   14
                                                                                     APPENDIX 3



                          STATUS OF AUDIT FINDINGS
                           AND RECOMMENDATIONS


 Recommendation                   Status                         Action Required
A1, A2, B2, C1, C2, C3,    Finding resolved and     No further action is required.
      and D                Recommendation
                           Implemented

B1 and E                   Finding unresolved and   Provide a response to the recommendation
                           Recommendation           that states concurrence or non-concurrence.
                           Unimplemented.           Provide a corrective action plan that includes
                                                    the target date and the official responsible for
                                                    implementation of the recommendation or
                                                    alternative solution. Unresolved findings and
                                                    unimplemented recommendations remaining
                                                    at the end of 90 days (after June 30, 2004)
                                                    will be referred to the Assistant Secretary of
                                                    PMB for resolution and/or tracking of
                                                    implementation.




                                              15
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone - Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240

              Phone:         24-Hour Toll Free                800-424-5081
                             Washington Metro Area            202-208-5300
                             Hearing Impaired (TTY)           202-208-2420
                             Fax                              202-208-6081

              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
